Washington, D.C. 20530

January 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Kenneth Lamont Sanders v. United States of America,
S.Ct. No. 20-6400
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 17, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on January 19 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6400
SANDERS, KENNETH LAMONT
USA

NOVA DANIELLE JANSSEN
ASSISTANT FEDERAL PUBLIC DEFENDER
400 LOCUST STREET
SUITE 340
DES MOINES, IA 50309
515-309-9610
NOVA_JANSSEN@FD.ORG

